No. 19-1009

In the Supreme Court of the United States
ALTERA CORPORATION & SUBSIDIARIES,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.

CERTIFICATE OF COMPLIANCE

I, Nicole A. Saharsky, counsel for Altera Corporation & Subsidiaries, hereby
certify that, according to the word-count tool in Microsoft Word, the Reply Brief for
Petitioners consists of 2,999 words, including footnotes and excluding the sections
enumerated by Rule 33.1(d). The brief therefore complies with Rule 33.1(g).

Nicole A. Saharsky
Mayer Brown LLP
1999 K Street NW
Washington, DC 20006
(202) 263-3000
nsaharsky@mayerbrown.com

